U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




        NATIONAL OCEANIC AND
  ATMOSPHERIC ADMINISTRATION


Inadequate Support Undercuts Value of
Booz Allen Study and Its Recommended Changes
to NOAA’s Finance and Administration Services


           Audit Report No. DEN-16948-5-0001/March 2005




                PUBLIC RELEASE




                   Office of Audits, Denver Regional Office
Department of Commerce                                                                      Audit Report No. DEN-16948-5-0001

Office of Inspector General                                                                                       March 2005


                                                 TABLE OF CONTENTS
                                                                                                                                   Page
EXECUTIVE SUMMARY ...........................................................................................................i

INTRODUCTION ........................................................................................................................1

OBJECTIVES, SCOPE, AND METHODOLOGY ......................................................................3


INADEQUATE SUPPORT UNDERCUTS

   VALUE OF BOOZ ALLEN STUDY.....................................................................................5

               Insufficient Support for Analysis Found in All Phases of Study................................6


                     Phase One: Workload Analysis Data Are Not Verifiable....................................7

                            Analysis of Sources of Workload Data.....................................................7

                            Combined Weaknesses Render Workload Analysis Questionable.........10

                     Phase Two: Recommended Organizational Structure and Projected
                        Productivity Gains Are Not Supported by Clear, Convincing Evidence ......11

                            Identification of Organizational Options,

                            Staffing Levels and Service Delivery Models ........................................12

                            Development of Cost-effective Recommendations ................................14

                            Insufficient Rationale for Recommended Structure and for

                            Critical Productivity-related Assumptions..............................................15

                     Phase Three: Cost Projections for Transitioning to Recommended Model
                         Are Not Documented ...................................................................................18

                            Development of Transition Plan.............................................................18

                            Validity of Estimated Transition Costs Cannot Be Confirmed ..............20

NOAA IS MOVING TO A FUNCTIONAL MANAGEMENT MODEL .................................22

          Study Team Identifies the Initial Steps to Implement Functional Model.......................22

          Study Team Recommends Transition Management .......................................................23


          Study Team Identifies Steps for Redesigning

          Finance and Administrative Services..............................................................................23

CONCLUSION...........................................................................................................................24


BOOZ ALLEN AND NOAA’S RESPONSES TO DRAFT REPORT

  AND OIG COMMENTS ......................................................................................................24

ATTACHMENTS

          ATTACHMENT I: Booz Allen’s Comments on Draft Audit Report

          ATTACHMENT II: NOAA’s Comments on Draft Audit Report

Department of Commerce                                             Audit Report No. DEN-16948-5-0001
Office of Inspector General                                                              March 2005

prepared the reports and their assertions that the reports contained all the evidence necessary to
understand the basis for their recommendations, we did not find that to be the case. As a result,
we do not believe that the assumptions, findings or recommendations contained in the Booz
Allen reports can serve the sole justification for change or provide a solid basis for specific
action by NOAA.

We provided Booz Allen and NOAA a draft of our audit report for their review and comment.
Their responses are summarized below and copies of their complete responses are provided in
Attachment I and II, respectively.

In its response to our draft report, Booz Allen details what it believes the firm did to ensure the
accuracy of the data contained in its reports and states its belief that the data contained in its
various consulting reports is accurate and that the recommendations based on the data are well
supported. The response provided no additional information or documentation that would cause
us to change our findings.

In its written response to our draft report, NOAA did not disagree with our conclusion that
inadequate support for the conclusions and recommendations in the consulting firm’s reports
undercuts the value of the study. In fact, NOAA acknowledged the significant challenges faced
by Booz Allen in its data collection, benchmarking efforts, and analyses. NOAA’s response
further suggests that the Booz Allen reports played a more limited role in its decisions and
subsequent actions to change the manner in which it delivers finance and administrative services
than was previously believed. Specifically, the agency states that it

        considered the BAH recommendations, as well as findings and recommendations from
        previous studies, in identifying its recommendations to NOAA leadership for strategic
        changes at the corporate level; these changes were seen as necessary for establishing a
        solid foundation for future process improvements. (Emphasis added.)

NOAA’s response is consistent with our conclusion that the Booz Allen reports not serve as the
sole basis for NOAA action.




                                                 v
Department of Commerce                                           Audit Report No. DEN-16948-5-0001
Office of Inspector General                                                            March 2005

accompanies the Department’s fiscal year 2004 appropriation legislation, contains the following
language, which was incorporated by reference into the Conference Committee’s report,
published as House Report 108-401:

        “Truth in Budgeting--NOAA covers the costs of certain central services through a
        system of internal ‘taxation.’ The costs of other central services are covered
        through a payment to the Department of Commerce’s Working Capital Fund.
        Rather than budget for these expenses, NOAA has always skimmed funds from
        program, project, and activity lines. Congressional supporters of NOAA have
        been understandably frustrated by these hidden taxes on essential programs. The
        Committee recommendation eliminates the taxation system by adding new lines
        under Program Support that totally fund central services. Henceforth, funding in
        program, project, and activity lines shall be available only for those programs,
        projects, and activities unless NOAA submits, and Congress approves, a
        reprogramming.”

Given the congressional interest in NOAA’s funding of its finance and administration services,
the agency needed to better understand and control its administrative spending. NOAA funded a
study of the services, with the intention of streamlining and reconfiguring operations to improve
performance and customer service, and to reduce costs.




                                              2

Department of Commerce                                                       Audit Report No. DEN-16948-5-0001

Office of Inspector General                                                                        March 2005


                          OBJECTIVES, SCOPE, AND METHODOLOGY


The purpose of our audit was to determine whether the findings, assumptions, conclusions and
recommendations presented in Booz Allen’s study are adequately supported. We also discussed
with NOAA officials how the study’s results are being used. It should be highlighted that we
have not sought—nor was it our intent in this audit—to independently assess or evaluate
NOAA’s finance and administration function or structure.

We reviewed the Booz Allen study, including the interim reports on its workload analysis,
benchmarking analysis, recommendations for cost-effective service improvements, and
recommended transition plan, and the comprehensive final report. After our review of the study,
we had questions about its methodology and preparation, and about the support for its analyses,
conclusions and recommendations.

To address our questions, we met with some of the Booz Allen officials who conducted and
managed the study. They stated that their comprehensive final report is a stand-alone document
containing all the supporting information for the study’s conclusions and recommendations.
However, to resolve our questions about the study, we requested access to the study’s supporting
documentation, which many evaluators, reviewers and auditors refer to as workpapers. Booz
Allen officials stated that neither their company policy nor industry standards require workpapers
for their study and that they therefore did not maintain such documentation.

In the absence of workpapers we or other similar documentation, we conducted additional work
to evaluate the support for the reports. We requested resumes for the Booz Allen study team and
timesheets to evaluate the time spent by each team member and thus the level of effort expended
by junior and more senior Booz Allen consultants. Booz Allen provided resumes for 45 of the
48 members of the study team, but declined our request for time sheets. In an effort to trace
information from selected interviews of NOAA and DOC personnel by Booz Allen consultants
to the various reports, we requested interview notes taken by the consultants for 16 of the 280
interviews that were undertaken as part of the study. 1 We received 13 interviews; Booz Allen
could not locate interview notes for the three remaining officials. In addition, we met and
discussed with the Booz Allen team leaders their methodology, how the study was prepared, the
assumptions made during their analyses of NOAA’s finance and administrative services, and the
study’s conclusions and recommendations.

We interviewed NOAA personnel and reviewed pertinent documentation in order to assess the
adequacy of evidence in support of the study. We conducted audit fieldwork during July through
September 2004, at Booz Allen’s offices in McLean, Virginia, and NOAA offices in Silver
Spring, Maryland and Washington, DC.

In pursuing our objectives, we reviewed appropriate laws and department organization orders
affecting NOAA’s finance and administrative services. Our review did not assess compliance
with laws and regulations, except as noted in this report. Also, we evaluated the adequacy of

1
 Since Booz Allen told the personnel interviewed that the results would be confidential, we requested a release from
each person.



                                                       3

Department of Commerce                                          Audit Report No. DEN-16948-5-0001
Office of Inspector General                                                           March 2005

Booz Allen’s internal controls for the report on NOAA’s finance and administrative services. To
assess the reliability of computer generated data, we interviewed Booz Allen officials about the
limitations cited in their reports for estimated cost savings. In addition, we interviewed NOAA
officials about the accuracy of the activity based costing data used in the Booz Allen
comprehensive final report.

We conducted our audit in accordance with generally accepted government auditing standards,
under the authority of the Inspector General Act of 1978, as amended, and Department
Organization Order 10-13, dated May 22, 1980, as amended




                                             4

Department of Commerce                                                  Audit Report No. DEN-16948-5-0001
Office of Inspector General                                                                   March 2005

Insufficient Support for Analysis Found in All Phases of Study

Booz Allen issued four interim reports: one on its workload analysis, one on other agencies’
workload, another on its recommendations for cost-effective service improvements, and a fourth
on its transition plan. A fifth and final report, a comprehensive summary of the findings,
conclusions and recommendations of first four reports, was issued on February 13, 2004. The
final report appears on the Internet at
http://oceanservice.noaa.gov/programs/mb/supp_adminreport.html.

According to Booz Allen’s final report, it examined the activities, processes, and workload
associated with the delivery of NOAA’s administrative services in the Washington, D.C.
headquarters offices and in the four Administrative Support Centers. The report states that a
three-phased approach was used to study the agency’s administrative services. The first phase
included analyzing NOAA’s workload and comparing it to the workload of other agencies in
order to assess the productivity of each of the eight administrative functions. The second phase
included identifying organizational structure options, appropriate staffing levels, and improved
service delivery models in order to make cost effective recommendations. The third phase was
to develop a transition plan that would be used to change the current organizational structure,
staffing levels and service delivery methods to the recommended model. The following chart
summarizes the three phases of the study.

                                     Booz Allen Study Approach




        Source: Comprehensive Final Report, Analysis Operations and Structure of NOAA’s Finance and

                                     Administration Services, Page 2-3.





                                                  6

Department of Commerce                                                 Audit Report No. DEN-16948-5-0001
Office of Inspector General                                                                  March 2005

Booz Allen explained to us that it assembled a 48- member team to conduct the study. We were
told that the team was divided into groups, based on professional expertise, which focused on
each of the eight functional areas of NOAA’s finance and administration services. One final
group was charged with analyzing the activity based costing data. According to Booz Allen’s
final report, “[The] workload analysis was performed using a methodology that was designed to
provide NOAA management with the ability to evaluate the current distribution of labor across
each functional area in an expedited timeframe.”

Source One: Activity Based Costing Data

The first source of data for Booz Allen’s workload analys is was NOAA’s activity based costing
data. Although both the agency and Booz Allen told us that they believe that data from NOAA’s
activity based costing system are unreliable, it appears that that information was the best source
of workload data available to Booz Allen at the time of its study. According to Booz Allen,
NOAA requested that the study team base its analyses on the activity based costing data, which
NOAA first began to accumulate in 2001. The final report describes Booz Allen’s ten-step
approach for validation and analysis of NOAA’s activity based costing data as shown in the
following chart.



                                Validating and Analyzing ABC Data




                   Source: Booz Allen Approach for Validating and Analyzing ABC Data from
                                    Comprehensive Final Report, page 2-5

According to Booz Allen’s final report, NOAA provided full- year activity based costing data for
fiscal year 2002, and partial- year data, through March 31, 2003, for fiscal year 2003. The report
states that the consultants developed 2003 full- year estimates by supplementing the 2003 partial-
year data with analysis of the 2002 data and interviews with NOAA staff. However, according
to Booz Allen’s final report, making comparisons of the data across fiscal years was difficult
because NOAA changed the activity based costing account structure between 2002 and 2003, as



                                                   8

Department of Commerce                                            Audit Report No. DEN-16948-5-0001

Office of Inspector General                                                             March 2005


it worked to refine its system. Booz Allen personnel explained that they resolved the
inconsistencies, to the extent possible, through discussions with NOAA’s internal activity based
costing team, reviewing previous studies of NOAA’s finance and administration services,
interviews with NOAA staff, and analysis of pertinent documentation. In describing the product
of these activities of producing a meaningful full- year workload analysis, Booz Allen’s final
reports states, “The 2003 data presented in this report may be best described as ‘adjusted’
workload and transaction data, which has been modified to reflect our understanding of the
present state.”

Booz Allen’s validation and analysis of NOAA’s activity based costing data also involved what
it called “normalizing” the data. Booz Allen’s final report explains this process to include
isolating salary and contractor costs by specific activity and determining the levels of fixed and
variable overhead costs. Knowledge of these cost factors was intended to enable the study team
to project cost impacts of proposed changes in staffing levels.

Source Two: Interviews of NOAA and Department of Commerce Personnel

Booz Allen obtained the second source of workload analysis data by conducting 280 interviews
with NOAA finance and administration personnel, customers within and outside NOAA, and
Department of Commerce officials. A list of the interviews is included as Appendix E of Booz
Allen’s Interim Deliverable One: Workload Analysis. The Booz Allen’s final report summarizes
how data gathered during the interviews were used in performing the workload analysis.
According to the report, the interviews were used as a source of workload data outside the
activity based costing data, as a tool in validating NOAA’s costing data, and in performing what
Booz Allen’s final report calls a “high- level survey” of customer satisfaction.

Source Three: External Benchmarking

The third source of data for Booz Allen’s workload analysis involved benchmarking NOAA’s
finance and administration performance against similar operations outside NOAA. Evaluation of
benchmarking data was a requirement of the NOAA contract. Booz Allen’s Interim Deliverable
Two: Benchmarking Analysis, states, “By examining the performance results of other
organizations and the service delivery models that support those results, NOAA hopes to gain
insight into its own performance levels, as well as the service delivery models other agencies are
using as well as the inherent structure and processes necessary to achieve these results.” Booz
Allen’s final report outlines a seven-step process for benchmarking, as summarized in the
following chart.




                                               9

Department of Commerce                                                   Audit Report No. DEN-16948-5-0001

Office of Inspector General                                                                    March 2005


                                         Benchmark Approach




                       Source: Interim Deliverable Two: Benchmarking Analysis , Page 7.

Regarding other agencies chosen to benchmark, Booz Allen’s final report lists 13 outside
agencies, as well as Booz Allen’s own “industry reports” and “confidential benchmarking
partners,” against which various NOAA finance and administration functions were benchmarked.
According to the report, the benchmarking agencies were identified through two sources. A
NOAA internal study team, assembled to monitor the study and act as an interface between the
Booz Allen consultants and NOAA management, provided a list of potential benchmarking
partners and points of contact. Booz Allen also identified potential benchmarking partners from
its archives of past consulting work with federal agencies. According to Booz Allen’s final
report, the Booz Allen archive data were “used to supplement the data gathered from other
agencies when benchmarking partners could not provide the required data in the time available
for [the] study.” The report did not identify the benchmarking partner agencies in those
instances where Booz Allen archive data were used, nor did it identify how old the archived data
was.

Although Booz Allen conducted the external benchmarking study at NOAA’s request, it does not
appear to have used the results to establish staffing levels for the functional model recommended
in the final comprehensive report. The comprehensive final report stated that comparisons of
NOAA performance levels with external cost/service benchmarks identified fewer opportunities
for improvement than internal benchmarking.

Combined Weaknesses Render Workload Analysis Questionable

We were unable to assess the validity of Booz Allen’s workload analysis because we could not
reconcile the cost and other data Booz Allen used with other verifiable data. While the overall
cost for NOAA finance and administration services cited in Booz Allen’s reports generally
agrees with NOAA’s accounting records, the reports’ cost and staffing figures at the task level
cannot be traced to verifiable data within the agency.


                                                   10

Department of Commerce                                            Audit Report No. DEN-16948-5-0001
Office of Inspector General                                                             March 2005

We are concerned that there is no adequate means to reconcile the cost and manpower data to
verifiable information. Without such a mechanism, it is impossible to determine whether errors
exist in the Booz Allen study’s calculations of cost and staffing levels by function and what the
magnitude of any such errors might be. Furthermore, lack of verifiable baseline data makes it
risky to project potential cost and staffing reductions. Booz Allen recognized the risks
associated with such projections by adding disclaimers in several places of its final report. For
example, the cover of Booz Allen’s final report states, “DISCLAIMER: In its conduct of this
analysis, Booz Allen has utilized the best available data concerning NOAA workload, staffing,
cost and performance levels. These data may be subject to further refinement, adjustment, or
validation via additional analysis beyond the scope and objectives of this study...”

In addition, we were unable to analyze the support for adjustments made by Booz Allen to the
activity based costing data produced by NOAA and the bases for those adjustments. Booz
Allen’s reports state that its consultants supplemented NOAA’s activity based costing data with
information gathered during its many interviews with NOAA and Departmental personnel.
Other adjustments were made as a result of information received from NOAA’s activity based
costing group.

The Booz Allen team member who worked with the activity based costing data told us that,
while he could trace the adjustments he made through various spreadsheets, he could not tell us
what information prompted specific changes. We could not determine from the report itself:
(1) what specific adjustments were made to the activity based costing data; (2) why those
adjustments were made; and (3) how the information obtained from the interviews was analyzed
and used in the study. Because the adjusted activity based costing data appears to have been the
most significant component of Booz Allen’s workload analysis and the associated
recommendations to NOAA, the uncertain bases for those adjustments is particularly troubling.

Phase Two: Recommended Organizational Structure and Projected Productivity Gains Are
Not Supported by Clear, Convincing Evidence

We could not assess the validity of Booz Allen’s decision to recommend a specific
organizational structure because the reports did not contain sufficient analysis supporting that
decision or indicating why the structure chosen suited NOAA better than any of the other options
identified. We were also unable to independently assess the validity of critical assumptions used
to develop target workloads for the eight administrative functions because the bases for those
assumptions was not clearly stated in the report or explained in our meetings with the Booz Allen
consultants. In addition, we could not assess the validity of the productivity gains Booz Allen
assumed NOAA could achieve because the reports did not contain an analysis of the reasons for
differences in productivity levels across existing NOAA operations or of the reasons to expect
that productivity could be increased to certain specified levels. Finally, Booz Allen’s
calculations of potential cost savings assume NOAA’s finance and administrative services
workloads will remain constant, which may not be a valid assumption.




                                              11

Department of Commerce                                                    Audit Report No. DEN-16948-5-0001

Office of Inspector General                                                                     March 2005





Source: Booz Allen’s Interim Deliverable Three: Recommendations for Cost-Effective Service Improvement (p. 2-3)

Booz Allen’s final report describes NOAA’s finance and administration service structure at the
time of the study to be “a multi-tiered service delivery model that represents a hybrid of
functional, geographic, and business line approaches.” The report adds, “However, no one
dimension of the model is completely realized. For example, [NOAA Administrative Support
Centers] do not consistently confine their activities to the geographic footprint that surrounds
their locations or to specific customers.” Booz Allen also found what it called “a matrixed
management reporting structure” in which employees at the support centers, regardless of their
functional responsibility, report to the center director, rather than a functional manager at NOAA




                                                    13

Department of Commerce                                            Audit Report No. DEN-16948-5-0001
Office of Inspector General                                                             March 2005

headquarters. The report goes on to say, “This hybrid, multi-tiered operating model has
contributed to a lack of clear accountability for performance.”

In developing its recommended service structure for NOAA, Booz Allen’s final report states that
it compared NOAA’s structure with the structures of 12 other federal agencies, using the four
organizational structure types described above. According to the report, 8 of the 12 agencies in
the comparison have a functional structure. Interestingly, this list of 12 agencies includes only 1
of the 13 benchmarking partners identified in Phase One of the study: the Internal Revenue
Service.

In addition to comparisons with other federal agencies, Booz Allen’s report also assesses each of
the four organizational structures’ ability to achieve six objectives Booz Allen desired in its
model structure. The six objectives are: (1) responding to customer needs; (2) supporting
performance accountability; (3) leveraging technology; (4) promoting standardization;
(5) streamlining processes; and (6) reducing costs of service delivery.

Development of Cost -effective Recommendations

Booz Allen proposes an overarching recommendation to change NOAA’s administrative services
organizational structure from a mix of functional, geographical, and business line service
delivery approaches, which it contends is inefficient, to a predominantly functional approach.
Booz Allen’s recommended structure is both functional and geographic in that it provides for
eastern and western operations centers, in recognition of NOAA’s needs to provide finance and
administrative services across multiple time zones, minimize travel to customer locations, and
provide for continuity of operations in case of technology failure or natural disaster.

Booz Allen’s final report states that, in order to support a transition to the proposed new
organizational structure, NOAA needs to implement six so-called “global” recommendations.
Two of the six recommendations included creating two new offices: a permane nt office to
oversee the management of administrative services and a temporary office to manage the
transition to the new organizational structure. The other four recommendations included
developing a plan to re-staff key positions, assessing the activity based costing initiative,
conducting a study of the services provided to non-NOAA customers, and conducting an analysis
of the other administrative services being performed outside NOAA’s centralized administrative
services system.

Booz Allen also made 53 specific recommendations directly related to the eight functional areas
of NOAA’s finance and administrative services. For example, the comprehensive final report
includes a recommendation in the finance services functional area to “assess and redesign the
activity of recording non-travel disbursements.” Within the discussion of the recommendation in
its report, Booz Allen summarizes its conclusions and any opportunities for cost savings and
service improvements it believes NOAA could realize. This structure is standard throughout the
53 function-specific recommendations. The following chart summarizes the function-specific
recommendations applicable to each of the eight finance and administration functions.




                                              14

Department of Commerce                                                         Audit Report No. DEN-16948-5-0001

Office of Inspector General                                                                          March 2005





                                          Function Specific Recommendations


           Facilities And Logistics                                                              12
          Information Technology                                                   9
          Workforce Management                                                 8
             Acquisition Services                                              8
                Finance Services                                     6
                 Budget Services                           4
             Grants Management                             4
       Environmental Compliance                  2

                                      0      2         4         6         8           10     12        14
                              Source: Comprehensive Final Report, pp. 1-13 through 1-15.

According to Booz Allen, NOAA could save an estimated $19.1 million annually and
significantly improve the quality of finance and administrative services if Booz Allen’s
recommendations are implemented. According to the report, total projected annual savings in
NOAA’s finance and administration organization would be $23.0 million, but the study
recommended transferring certain functions currently performed within this organization to other
offices within NOAA. The report estimates annual costs associated with the transferred
activities to be about $3.9 million, making the net projected savings to NOAA $19.1 million per
year.

Finally, the study makes three “other” recommendations to NOAA. These include establishing a
separate budget office to support Booz Allen’s recommended new position of Assistant
Administrator for Management, improving records management processes within NOAA’s
Administrative Management and Executive Secretariat, and providing additional study assistance
for NOAA’s competitive sourcing program.

Insufficient Rationale for Recommended Structure and for Critical Productivity-related
Assumptions

We could not determine Booz Allen’s rationale for recommending a predominantly functional
organizational structure rather than the other structures analyzed. The final report states that
Booz Allen assessed the various organizational structure alternatives using “a set of customized
criteria” developed by the consultants to ensure the recommended structure “would meet
NOAA’s needs now and in the future.” The report contains a matrix summarizing Booz Allen’s
scoring of the four structures against each of the criteria, with the highest aggregate score given
to the functional structure. However, the report does not discuss how individual scores were
assigned to each of the evaluation criteria, making it virtually impossible for a reader to
independently assess the validity of the scoring. It also should be noted that the functional
organizational structure Booz Allen recommended is not linked to almost half of the cost savings


                                                       15

Department of Commerce                                             Audit Report No. DEN-16948-5-0001
Office of Inspector General                                                              March 2005

identified in the report, which are the result of productivity increases that could occur whether or
not the organizational structure remains the same.

It should be highlighted that we have not sought—nor was it our intent in this audit—to
independently assess or evaluate NOAA’s finance and administration function or structure or to
determine the type of management structure that is best for NOAA. Rather, because it was
widely believed that the Booz Allen study (1) represented the cost-benefit analysis that would be
useful in helping justify or recommend specific management courses of action and (2) was a
primary basis for NOAA’s decision to shift to a radically different management structure for its
finance and administration services, we sought to determine how NOAA is using the study’s
results and whether the findings, assumptions, conclusions and recommendations presented in it
are adequately supported. Accordingly, while we found the support for Booz Allen’s
recommended structure to be inadequate, we did not assess whether the functional management
structure is an appropriate or inappropriate choice for NOAA

We were also unable to independently assess the validity of critical assumptions used to develop
target workloads for the eight administrative functions because the bases for those assumptions
were not clearly stated in the report or explained in our meetings with Booz Allen personnel. In
our reviews of the interim and final reports we noted that Booz Allen made different assumptions
in estimating necessary staffing levels in the interim deliverable report on cost-effective service
improvements and in the subsequent comprehensive final report. In the earlier report, the
consultants generally assumed that all NOAA offices performing administrative functions could
reach productivity levels for each function equal to the productivity of the current top-
performing office within NOAA. However, in its comprehensive final report, Booz Allen
reduced its target performance levels for most functions to 75 percent of the current top
performer. The effect of this change was to increase the projected number of staff required for
each function, thereby decreasing the estimated cost savings. In its interim deliverable report,
using the top-performing NOAA organizations as productivity targets, Booz Allen computed
possible staff reductions of 207 full time equivalent federal employees and annual cost savings of
$30.8 million. By contrast, the comprehensive final report, generally based on targets of 75
percent of the most efficient NOAA organization, suggested possible reductions of 144 full time
equivalent employees and projected annual cost savings of $19.1 million.

The reports did not explain how Booz Allen arrived at either target performance level and the
consultants we interviewed were not able to provide us with documentary evidence supporting
the development of these levels. We did discuss development of the 75-percent productivity
targets with the project manager of Booz Allen’s study team, who explained that Booz Allen’s
original estimate of $30.8 million in cost savings was developed without input from NOAA.
Conversely, the $19.1 million of estimated annual savings, using 75 percent of the most-efficient
NOAA organization as a target, was based on input from the NOAA study team, although the
project manager did not indicate what that input was. The project manager also indicated that
both estimates were based on, and supported by, the expert judgment of the study team, in
addition to the cost and manpower data. Despite these explanations, we could not find any
concrete evidence supporting the use of either target and therefore could not independently
validate the use of either target. Without such evidence, the 75 percent figure appears no more




                                               16

Department of Commerce                                                    Audit Report No. DEN-16948-5-0001
Office of Inspector General                                                                     March 2005

likely to be attainable than had Booz Allen assumed 60 percent, 90 percent, or any other
percentage of the top performer’s rate as its target.

We also found problems with Booz Allen’s methodology for computing staffing requirements
and projecting cost reductions at the task level. The following example related to acquisitions is
indicative of the type of analysis used for each of the eight functional areas. Booz Allen
determined that the most efficient NOAA organization in the area of simplified acquisitions
processed $13.8 million of simplified acquisition actions per full time equivalent employee in
2003. The report states:

        “It is reasonable to assume that the entire acquisition function could approach this
        level if the internal best practices that drove this performance were identified and
        applied across the entire function. … In order to determine the impact of this
        change, we assumed that the Acquisitions teams within NOAA that were not at
        the $13.8 million level would increase their productivity to 75% of that level.”

The following chart, from the study’s final report, summarizes Booz Allen’s analysis of NOAA’s
simplified acquisitions activity.

                                Acquisitions – Simplified Acquisitions




                         Source: Simplified Acquisitions per Full Time Equivalent from
                                    Comprehensive Final Report, page 7-7

Using the target workload of 75 percent of the $13.8 million of simplified acquisitions processed
per full time equivalent at the most efficient NOAA organization, Booz Allen determined each
full time equivalent employee should be able to process about $10.35 million of simplified
acquisition actions. Then, using the total value of NOAA simplified acquisitions in 2003,
$278.3 million, Booz Allen calculated that NOAA requires 25 full time equivalent employees to
process simplified acquisitions. This represents a nationwide reduction of 14 full time equivalent
employees from the Booz Allen-computed figure of 39 full time equivalents in the “as is”
organization.

Booz Allen’s final report does not address a problem we noted in the analysis described above.
The target level of $10.35 million of actions per full time equivalent is nearly double the current
productivity levels of three of the five NOAA organizations surveyed -- these three organizations
account for 31 of the 39 full time equivalent employees that Booz Allen determined to be
involved in processing simplified acquisitions -- and is almost 45 percent higher than NOAA’s
nationwide average of $7.14 million of simplified acquisitions per full time equivalent, as shown
in the table, above. Yet Booz Allen’s reports do not contain an analysis of the functions
performed at each of the five organizations in order to explain possible differences in the nature



                                                   17

Department of Commerce                                                  Audit Report No. DEN-16948-5-0001

Office of Inspector General                                                                   March 2005




Booz Allen’s final report states that it analyzed overhead costs and distinguished between
variable and fixed overhead items. Variable overhead costs are those that are affected by
changes in staffing levels, such as transportation subsidies and communications. Fixed overhead
costs, for example facility costs, generally do not change with changes in staffing levels. The
report states that Booz Allen assumed some fixed overhead costs could be removed or reduced in
the case of a facility closing and mentions rental costs as an example.

Booz Allen estimates total transition costs for the three-year plan to be $22.1 million. As stated
previously, Booz Allen estimates annual cost savings, if NOAA were to implement all of its
recommendations, to be $19.1 million. As cost savings and transition costs are phased in
throughout the three-year transition, Booz Allen projects that NOAA would reach a break-even
point during the second year of the transition. After the break-even point, Booz Allen’s
projections indicate cumulative savings will exceed cumulative transition costs. The following
chart illustrates Booz Allen’s comparison of transition costs with annual cost savings.



                 Comparison of Cumulative Transition Costs and Cost Savings




             Source: Comprehensive Final Report, Analysis of Operations and Structure of NOAA’s
                             Finance and Administration Services, Page 13-16

Validity of Estimated Transition Costs Cannot Be Confirmed

We could not assess the validity of the estimated transition costs computed by Booz Allen
because the reports did not contain sufficient analysis supporting the assumptions underlying
those calculations.




                                                  20

Department of Commerce                                             Audit Report No. DEN-16948-5-0001
Office of Inspector General                                                              March 2005

As noted previously, Booz Allen categorized the estimated transition costs as being labor related
or non- labor related. The majority of Booz Allen’s estimated transition costs, about $17 million
of the total estimate of $22.1 million, are in the non- labor related category. Booz Allen’s reports
contain almost no information related to the non- labor related transition costs that would allow a
reviewer to independently assess the estimates and underlying assumptions. In fact, Booz
Allen’s Interim Deliverable Four: Transition Plan, states, “The costs identified ... are rough
order of magnitude costs and are based on our best professional judgment as to the level of effort
required to implement the recommended activities.” The levels of effort referred to in Booz
Allen’s report are assumed to be either low, medium, or high, with differing levels of estimated
transition costs assigned based on Booz Allen’s assumed level of effort. We found no support in
the reports for the levels of effort assigned.

The remaining $5.1 million of labor related transition costs include assumed cost factors for
downsizing and restaffing based on Booz Allen’s calculations of the weighted average costs per
full time equivalent employee affected. While the reports illustrate Booz Allen’s calculations of
the weighted averages, they did not include a description of how they arrived at the costs per full
time equivalent employee, or the assigned weighting factors, that was sufficient to enable us to
assess the strength of these figures.




                                               21

Department of Commerce                                            Audit Report No. DEN-16948-5-0001

Office of Inspector General                                                             March 2005


                                         CONCLUSION


Although Booz Allen’s reports indicate extensive data gathering and analyses, we had many
concerns with the support for the findings, recommendations and assumptions contained in the
reports prepared by Booz Allen after our initial review of those documents. During our
discussions and meetings with the Booz Allen consultants who prepared the reports, they advised
us that the reports contained all the evidence necessary to understand the basis for their
recommendations. We did not find that to be the case. We were also unable to see how
information obtained in the interviews Booz Allen consultants conducted with NOAA and
Departmental officials supported the reports’ findings and conclusions. Finally, we were not
able to eliminate these concerns in our meetings with the Booz Allen consultants who prepared
the reports. As a result, we do not believe that the assumptions, findings or recommendations
contained in the Booz Allen reports can serve as the sole justification for change or provide a
solid basis for specific action by NOAA.

We would also like to point out that the functional organizational structure Booz Allen
recommended is not linked to almost half of the cost savings identified in the report, which are
the result of productivity increases that could occur whether or not the organizational structure
remains the same.

BOOZ ALLEN AND NOAA’S RESPONSES TO DRAFT REPORT
AND OIG COMMENTS

We provided Booz Allen and NOAA a draft of our audit report for their review and comment.
Their responses are summarized below and copies of their complete responses are provided in
Attachment I and II, respectively.

Booz Allen states that it believes that the data contained in its various consulting reports is
accurate and that the recommendations based on the data are well supported. The response
explains what it believes the firm did to ensure the data’s accuracy. Although Booz Allen’s
explanation of its procedures is generally consistent with the discussion in our report, the
response provided no additional information or documentation that would cause us to change our
findings.

NOAA did not disagree with our conclusion that inadequate support for the conclusions and
recommendations in the consulting firm’s reports undercuts the value of the study. In fact,
NOAA acknowledged the significant challenges faced by Booz Allen in its data collection,
benchmarking efforts, and analyses. NOAA’s response stresses the role that the Booz Allen
study played in its decisions and subsequent actions to change the manner in which it delivers
finance and administrative services. The agency states that it considered the study’s
recommendations, as well as findings and recommendations from previous studies, in the context
of sound management practices in making fundamental changes designed to strengthen NOAA’s
management of its corporate financial and administrative service program. NOAA’s response is
consistent with our conclusion that the Booz Allen reports not serve as the sole basis for NOAA
action.




                                              24

